                     U.S. Department of Agriculture

                        Office of Inspector General
                                    Midwest Region




           Audit Report

Meal Accountability at Choice Schools
      in Milwaukee, Wisconsin




                              Report No. 27004-0005-Ch
                                              May 2007
Ollice Holden                                                                                                                                   2

Based on your response, dated April 25, 2007, we have reached management decision on
Recommendation 1. Please follow your agency’s internal procedures in forwarding documentation for
final action to the Office of the Chief Financial Officer. In accordance with Department Regulation
1720-1, final action is to be taken within 1 year of the management decision. We appreciate the
courtesies and cooperation extended to us by your staff during this review.

BACKGROUND

The NSLP and SBP are federally assisted meal programs operating in public schools, non-profit
private schools, and residential child care institutions. Both programs provide nutritionally balanced,
low-cost or free lunches to children. 1 The Food and Nutrition Service (FNS) funds the NSLP and SBP,
which are usually administered by State educational agencies. The States’ agencies operate the
programs through agreements with school food authorities or individual schools. 2

In Wisconsin, DPI officials administer the NSLP and SBP. They also administer the Choice Program,
which allows students under specific circumstances to attend private sectarian and nonsectarian
schools located in the city of Milwaukee, Wisconsin, free of charge.3 As of September 2006, 71 Choice
schools in Milwaukee participated in the NSLP, and 46 of the 71 also participated in the SBP. Both the
FNS Midwest Regional Office and the Wisconsin DPI officials requested that OIG audit the
Milwaukee Choice School participation in the NSLP, based on concerns over the accuracy of claims
submitted by one of its schools.

OBJECTIVES

To assess meal accountability procedures at Choice Schools, and evaluate the Wisconsin DPI’s efforts
to ensure compliance with program requirements.

SCOPE AND METHODOLOGY

We performed our audit at the Wisconsin DPI in Madison, Wisconsin, and at 5 of 71 schools
participating in the NSLP. Our audit included the school lunch program for the 2005—2006 and
2006—2007 academic years, and the current SBP operations. For the 2005—2006 academic year, the
five schools in our review received $548,664 of the $5,085,611 reimbursed to all 71 Choice schools
participating in the NSLP and SBP. For the 2006—2007 academic year, as of December 31, 2006, the
five schools in our review received $190,046 of the $1,888,271 reimbursed to all 71 Choice schools
participating in the NSLP and SBP.

We judgmentally selected three Choice schools based on a risk analysis of their average daily claims
per month during the 2005—2006 academic year, and randomly selected two other Choice schools
for review. For four schools, we judgmentally sampled claims data for two months during the
2005—2006 academic year based on either the months with a significant increase in claim amounts,

1
  The NSLP was established through the National School Lunch Act, passed by Congress June 4, 1946, now the Richard B. Russell National School Lunch
Act, as amended October 22, 1999. The SBP was established through the Child Nutrition Act of 1966.
2
  School food authorities are the governing bodies responsible for the administration of the NSLP and SBP at one or more schools.
3
  The ability to participate in the Choice program is affected by income level and availability of school openings.
Ollice Holden                                                                                         3

the months with the highest claim amounts, or the months with no variation in claim amounts from
prior months. At the fifth school, we reviewed claims for all months during the 2005—2006 academic
year. We conducted fieldwork from September through December 2006, and performed the audit in
accordance with Government Auditing Standards.

To accomplish our objectives, we:

       •     reviewed pertinent program regulations, policies, and guidance;
       •     interviewed FNS, Wisconsin DPI, and school officials;
       •     observed meal services for lunch and breakfast at the selected schools;
       •     analyzed meal count documentation from each school to verify claim amounts submitted to the
             Wisconsin DPI;
       •     reviewed applications maintained by the selected schools;
       •     evaluated the Wisconsin DPI’s administrative review process for the NSLP and SBP; and
       •     reviewed training material and schedules provided to Choice schools.

FINDING

Additional State Monitoring Needed to Detect Deficiencies at Schools

The Choice schools we visited had not always accurately counted the number of meals provided to
students. In addition, some schools did not have applications on file to support the number of eligible
students reported to the Wisconsin DPI. Due to infrequent monitoring, the Wisconsin DPI did not
detect these program violations. Consequently, we cannot ensure that meal claims made by Choice
schools in Milwaukee, Wisconsin, are accurate.

FNS regulations require States to conduct administrative reviews at least once during each five-year
review cycle, but it also encourages additional reviews for any school food authorities that may benefit
from a more frequent interval than the minimum five-year cycle.4 The Wisconsin DPI reviews the
Choice schools once every five years. When the schools are up for review, all of them are evaluated
during the same academic year.

Wisconsin DPI officials requested that OIG conduct an audit because of problems noted at one of the
Choice schools in Milwaukee. To identify similar schools such as this one, we performed a risk
analysis of the monthly meals claimed for 71 Choice schools, using criteria such as the average daily
meals claimed per month, and the number of approved meals. We identified 18 schools that had greater
than expected month-to-month fluctuations in these categories, and selected 3 of them for further
review. In addition, the FNS Region officials requested that we select two additional schools. We
randomly selected them for review. The deficiencies we found are described as follows.




4
    7CFR 210.8 (C) (1 and 2).
Ollice Holden                                                                                                                          4

Meal Counting Procedures

We discovered that four of the five schools we reviewed submitted questionable meal claims.
Discrepancies were particularly evident at two schools. For example, one school submitted
questionable meal counts that exceeded ten percent of the monthly claim. Our review of the documents
supporting the meal claims disclosed that the meal counts were not tallied at this school. Once we
tallied and compared the results to the claims submitted for reimbursement, we found discrepancies.

For instance, we calculated that the school personnel overclaimed 221 of 1749 free-lunch meals and
241 of 763 reduced-lunch meals over a three-week period in February 2006, and underclaimed at least
581 free-lunch meals, 972 were actually claimed, in January 2006. Our inquiry disclosed that the
claims were inaccurate because the foodservice manager had calculated meals for reimbursement by
subtracting the total number of absent students from the total number of approved applications in each
category during each week, resulting in inaccurate claims. In the Wisconsin DPI’s review of the school
five years ago, meal counting and claiming problems were also found. However, since that review, the
manager and the subsequent replacement no longer work at the school, and the current manager has
been in charge less than one year.

At the other school, officials did not have documentation to support meal claims for the first week in
December 2005. Nor did they have supporting documents to verify the total monthly claims they
submitted for December 2005, and February 2006. The manager could neither explain nor provide
additional documentation for the unsupported meal claims. Therefore, we have no assurance that the
school’s meal counts submitted to the Wisconsin DPI were accurate. Although the DPI reviewed this
school 5 years ago, since then the school has hired another foodservice manager. FNS regulations state
that meals should be correctly counted and recorded. 5 Also, records should be maintained to
demonstrate compliance with program requirements, including documentation of participation data in
support of the claims for reimbursement. 6

Application Processing

We examined the applications for all students identified as eligible for free and reduced meals during
the 2005—2006 and 2006—2007 academic years. Completed applications are necessary to determine a
student’s eligibility and level of reimbursement for NSLP and SBP meals, which are based on
household income and size. We noted that four of the five schools reviewed had missing applications,
or the applications were lacking specific critical information such as income, income frequency, or
food assistance case number. 7

For the 2005—2006 academic year, one school was missing applications for
44 of the 329 children listed as eligible for free or reduced meals. Another school was missing
14 of the 261 applications for the 2006—2007 academic year. Of all the applications we reviewed,
36 from the 2005—2006 school year and 6 from the 2006—2007 academic year were incomplete

5
  7CFR 210.18(g)(1)(i)(C)(2) and 210.9(b)(8,9).
6
  7CFR 210.15(b)(1)
7
  Evidence of participation in the Food Stamp Program, Temporary Assistance for Needy Families, or the Food Distribution Program on Indian
Reservations qualifies a student for free meals if the case number or other identifier is provided on the NSLP application.
Ollice Holden                                                                                           5

because they were either missing sufficient income information or lacking the necessary identification
numbers for students that qualified for food assistance. The schools’ officials stated that they neglected
to ensure the applications were completed.

SUMMARY

We attribute the above deficiencies found at the schools we visited to the turnover of foodservice
management positions during the five-year period between Wisconsin DPI reviews. To better monitor
Choice schools, the Wisconsin DPI needs to modify their procedures to ensure problems are timely
detected and corrected. We believe DPI could accomplish this goal in one of two ways. Firstly, instead
of reviewing all of the Choice schools once every five years (during the same academic year), DPI
officials could divide the administrative reviews up over a five-year period by reviewing 20 percent of
the schools each year. At the end of each of the annual reviews, the DPI officials could summarize the
noted deficiencies at the schools reviewed and distribute the overall results to all the Choice schools to
function as guidance of the standards they should follow. Secondly, the officials could replicate this
audit’s methodology by performing a risk assessment of the schools. They could establish criteria
needed to identify at-risk schools, and then perform additional visits. In conclusion, the Wisconsin
DPI’s current monitoring procedures should be modified to conduct reviews more frequently.

Recommendation 1

Require the Wisconsin DPI to perform more frequent reviews of Choice schools to prevent recurring
discrepancies.

Agency Response

In its response, dated April 25, 2007, FNS Midwest Region officials agreed with our recommendation.
The officials stated that the Wisconsin DPI will apply for a grant that will allow them to hire two
consultants, and provide three years of consecutive reviews, training and technical assistance for
Choice schools with high administrative errors. If the grant is not funded, the Wisconsin DPI will
conduct reviews and provide technical assistance for Choice schools with high administrative errors.
The estimated date of completion is March 31, 2008.

OIG Position

We accept FNS’ management decision for this recommendation. Final action can be achieved when
the Wisconsin DPI and the FNS Midwest Regional Office advise the Office of the Chief Financial
Officer that additional reviews and technical assistance have been made at Choice schools.
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 2
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 2
Informational copies of this report have been distributed to:

U.S. Government Accountability Office                           1
Office of the Chief Financial Officer
       Director, Planning and Accountability Division           1
Office of Management and Budget                                 1
